Supreme Court, U.S.
FILED

No.

2Q-6393

NOV 0 3 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

TODD HUGHES — PETITIONER

vs.
i

STATE OF FLORIDA — RESPONDENT(S)

ON PETITION FORA WRIT OF CERTIORARI TO

Second District Court of Appeals. State of Florida
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

Todd Hughes DC#166098
Suwannee Correctional Institution Annex
5964 U.S. Hwy 90
Live Oak, Fla. 32060

7

ORIGINAL

QUESTION(S) PRESENTED

Did the Florida Second District Court of Appeal and the Florida Sixth Judicial
Circuit violate the Petitioner's and like situated inmates, rights under the Eighth and
Fourteenth Amendments to the U.S. Constitution, cruel and unusual punishment and
due process, respectively, when deciding the Petitioner's post- conviction motion
claiming that his designation as a sexual predator is illegal.

8

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

9

TABLE OF CONTENT
QUESTION(S) PRESENTED

8

LIST OF PARTIES

9

INDEX TO APPENDICES

10

OPINIONS BELOW

11

JURISDICTION

12

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

13

STATEMENT OF THE CASE

14

REASONS FOR GRANTING THE PETITION

19

CONCLUSION

28

PROOF OF SERVICE

29
INDEX TO APPENDICES

APPENDIX A

Decision Second District Court of Appeal. Florida

APPENDIX B

Order on Petitioner’s Postconviction Motion

APPENDIX C

Amended Information

APPENDIX D

Judgment of Conviction and Sentence

APPENDIX E

Postconviction Motion (FI. R. Crim. P. 3.800(a)')

APPENDIX F

John Woods Trial Transcripts: pg 258. Ins 9-22 and
pg 259. Ins 20-25

APPENDIX G

10

Letter from prosecutor and handwritten notes

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
.; or,

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Sixth Judicial Circuit court appears at Appendix
_____ B
to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

11

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was___
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including__
(date) on
(date)
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was July 31.2020. A
copy of that decision appears at Appendix
A
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________ , and a copy of the order denying rehearing appears at
Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including _
(date) on
(date) in
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

12

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution, Amendment 8: Cruel and Unusual Punishment
United States Constitution, Amendment 14: Due process
Florida Constitution, Article I, section 9: Due process
Florida Statutes: §794.01 l(3)(Sexual battery 12 years of age or older), (1997);
§787.0 l(a)(3)(Kidnapping), (1997); §784.045(Aggravated battery), (1997);
§777.011 (Principal in first degree), (1997); §777.04(Attempts, solicitation, and
conspiracy), (1997).

13

STATEMENT OF THE CASE

Procedural History:
On September 1, 1998, by amended information the Petitioner was charged
with: Count One - Sexual battery in violation of section 794.011 (3)/777.011, Fla.
Stat. (1997), a life felony; Count Two

Kidnapping in violation of section

787.01 (a)(3)/777.011, Fla. Stat. (1997), a first-degree felony punishable by life;
Count

Three

Attempted

sexual

battery

in

violation

of

sections

794.011(3)7777.04/777.011, Fla. Stat. (1997), a second-degree felony; and Count
Four - Aggravated battery in violation of section 784.045/777.011, Fla. Stat. (1997),
a second-degree felony. (App. C; Amended Information)
Petitioner entered a plea of no contest on September 8, 2000 and was
sentenced in accordance with the plea agreement to concurrent terms of twenty-five
years imprisonment for counts one and two, and to concurrent terms of fifteen years
imprisonment for counts three and four, concurrent with count one. Petitioner was
also designated a sexual predator. (App. D; Judgment of Conviction and Sentence)
Petitioner's timely appeal was dismissed on April 24, 2002, for failing to
comply with court order. Hughes v. State, 818 So.2d 511 (Fla. 2D DCA 2002).
Petitioner filed several motions for postconviction relief which were
unsuccessful.
On January 25, 2006, Petitioner filed a motion to correct illegal sentence

14

f
claiming his sentences were illegal due to the inclusion of victim injury, sexual
penetration, and sexual contact points. Petitioner asserted the points were
erroneously placed on his scoresheet without a specific finding by a jury or by his
own admission and cited to Apprendi v. New Jersey, 530 U.S. 466 (2000), and
Blakely v. Washington, 542 U.S. 296 (2004), to support his argument.
On February 23, 2006, the court denied the motion based on the fact that the
victim injury points did not increase the sentences imposed beyond their statutory
maximum as defined by Apprendi.
On Appeal, the Second District affirmed the denial of the motion and certified
conflict with Isaac v. State, 911 So.2d 813 (Fla. 1st DCA 2005). Hughes v. State, 933
So.2d 1285 (Fla. 2D DCA 2006), review denied, 974 So.2d 386 (Fla. 2008).
On September 6, 2016, the Petitioner filed a Motion to Correct Illegal
Sentence pursuant to Fla. R. Crim. P. 3.800(a), challenging his designation as a
sexual predator claiming that the court should have applied the Florida Statutes that
were in effect on the date of his sentencing on September 8, 2000, rather than the
statutes in effect on the date of the crime. The Court denied the motion citing to
Vonador v. State, 857 So.2d 323, 324 (Fla. 2D DCA 2003) [(" it is axiomatic that a
criminal sentence is governed by the laws in effect at the time of the offense")]
A timely appeal was taken and per curium affirmed by the Second DCA on
August 2, 2017. Hughes v. State, 2017 Fla. App. LEXIS 10938; Case No. 2D 16-

15

4617 (Table).
On February 10, 2020, the Petitioner filed a Motion to Correct Illegal
Sentence pursuant to FI. R. Crim. P. 3.800(a), asserting that his designation as a
sexual predator is illegal. Said motion denied on the merits by the Honorable Chris
Helinger, Circuit Judge of the Sixth Judicial Circuit on February 27, 2020.
A timely appeal was taken to the Second DCA and per curiam affirmed on
July 31, 2020.
This Petition then ensued.
Facts The Petitioner Relies Upon:
On September 1, 1998, the Petitioner was charged by Amended Information
for an incident which occurred on November 14 and 15, 1997. (App. C; Amended
Information).
In 1997, the Petitioner was the owner of two separate houses at 1726 and
172614 Second Ave N., St. Petersburg, FL. Mr. Hughes co-defendants, John Woods
and Eric Anderson, rented rooms in 1726, the front house. Mr Dean Goddard, the
victim, resided in 172614, the rear house with David Wasson the primary tenant.
On the night of November 14/15, 1997, Mr. Wasson asked Mr. Goddard to
vacate the premises due to non-payment of rent. In assistance of this eviction, Mr.
Wasson and Mr. Woods assaulted Mr. Goddard and attempted to throw Mr. Goddard
out a second story window.

16

The Petitioner attempted to quell the situation and evict Mr. Goddard by
removing him to the ground floor. After a scuffle with Mr. Goddard the police arrive
and state that because Mr. Goddard has possessions and has resided on the premises,
he cannot be evicted in this manner and escorted Mr. Goddard back to his room on
the second floor.
At this time the Petitioner left the premises and returned 30 minutes later with
his girlfriend, Connie Alderman, and continued indulging in alcohol with the
tenants.
Believing that he had justification, due to his alcohol consumption and police
involvement, Mr. Goddard demanded everyone vacate the premises and attempted
to slam the door in Mr. Woods face dislodging a full length mirror which struck Mr.
Woods bodily.
At this point everything escalated. Mr. Woods and Mr. Anderson pummeled
Mr. Goddard within the bedroom. The Petitioner, in another attempt to quell the
situation, then restrained Mr. Goddard by sitting him in a chair and holding his arms.
When Mr. Woods dropped his pants, the Petitioner released Mr. Goddard and exited
the room to stand with his girlfriend in the doorway.
At this point the Petitioner's co-defendant's, Mr. Woods and Mr. Anderson
proceeded to beat Mr. Goddard unmercifully. This is when the sex offense occurred.
The Petitioner's girlfriend, Connie Alderman, described the situation under

17

oath at Mr. Woods trial:
Q. [Ms. Rivellini, ASA1] Okay. What did you start to see
happen?
A. [Connie Alderman] Well, they started beating up on him.
Q. When you say "they", who are you referring to?
A. Eric [Anderson] and John [Woods].
Q. What is Todd [Hughes] doing?
A. He was standing in the doorway with me.
Q. Is Todd saying anything?
A. No, not that I remember.
Q. And when you say beating on, what did you actually see take
place by John?
A. Well, they had all beat on the guy and hit him, but John was
the one that had committed the sexual acts.
(Appendix F; John Woods Trial Transcripts; pg 258, Ins 9-22)
Q. Okay. And where was Todd when this was going on?
A. He was in the doorway with me.
Q. At any time did you see Todd direct John to do any of this
stuff?
A. No.
(Appendix F; John Woods Trial Transcripts; pg 259, Ins 20-25)
During the incident Mr. Wasson was asleep in bed. At this time he was awoken
and proceeded to clear the premises. The next day the police became involved.

'Ms. Kimberly Rivellini, ASA, 5100 144th Ave. N., Clearwater, Florida 34620

18

REASONS FOR GRANTING THE PETITION

A.

Mr. Hughes asserts that the "offender", as used in §775.21(4)(c), Fla. Stat.

(1997), is the actual perpetrator of the offense and not a principal. By requiring the
Petitioner to register as a sexual predator, the court has violated his constitutional
rights against cruel and unusual punishment and due process, violations of the
United States Constitution, Amendments 8 and 14.
In the case at bar, we have four people, two vicariously, participating in a
sexual assault. The statute does not allow for a vicarious designation for the
Petitioner because of the actions of his co-defendants. The statute clearly is meant
to protect the public from the actual "offender" and not from a "principal offender".
If the state had charged the Petitioner with the commission of the actual sexual
felony, then the statute would apply, and the Petitioner could be designated a Sexual
Predator with all the requirements attached. Yet as it stands, the Petitioner was
charged under "Chapter 794.011(3) / 777.011", Fla. Stat. (1997) as a principal,
§777.011, not as the actual perpetrator.
Mr. Hughes asserts that the "offender", as used in §775.21 (4)(c), Fla. Stat.
(1997), is the actual perpetrator of the offense and not a principal. A principal is
defined as:
Whoever commits any criminal offense against the state,
19

whether felony or misdemeanor, or aids, abets, counsels,
hires, or otherwise procures such offense to be committed,
and such offense is committed or is attempted to be
committed, is a principal in the first degree and may be
charged, convicted, and punished as such, whether he or
she is or is not actually or constructively present at the
commission of such offense.
§777.011, Fla. Stat.(1997)
The Legislative Intent, defined under §775.2l(3)(a), Fla. Stat. (1997) states
that "[r]epeat sex offenders, sex offenders who use physical violence, and sex
offenders who prey on children are sexual predators who present an extreme threat
to the public safety." The word "offender" clearly means the actual perpetrator of the
crime not a non-participant who has been charged, convicted, and sentenced under
the principal theory of guilt. See State v. Dugan, 685 So. 2d 1210, 1212 (Fla. 1996)
(stating that if "the language of the statute is clear and unambiguous, a court must
derive legislative intent from the words used without involving rules of construction
or speculating as to what the legislature intended.") In addition, when a statute
encroaches on fundamental constitutional rights, the statute also must be narrowly
tailored to achieve the state's purpose. Id. (citing In re Forfeiture of 1969 Piper
Navajo, 592 So.2d 233, 235 (Fla. 1992); lOAFla. Jur.2d Constitutional Law §485
(2003)).
The legislative purpose of §775.21, (1997), The Florida Sexual Predators Act,
is unambiguously clear: "It is the purpose of the Legislature that, upon the court's

20

written finding that an offender is a sexual predator, in order to protect the public it
is necessary that the sexual predator be registered with the department and that the
community and the public be notified of the sexual predator's presence." §775.21 (d),
Fla. Stat. (1997). (emphasis added).
The sexual battery chapter of the Florida Statutes, 1997, defines offender
under §794.011(1 )(d), as: "Offender means a person accused of a sexual offense in
violation of a provision of this chapter." In addition, §794.011(3) states that "[a]
person who commits sexual battery upon a person 12 years of age or older, . . . "
(emphasis added).
Again, "offender" is defined as the actual perpetrator of the sex offense, and
not a non-participant as defined under the principal statute.
In the case at bar, we have four people, two vicariously, participating in a
sexual assault. The statute does not allow for a vicarious designation for the
Petitioner because of the actions of his co-defendants. The statute clearly is meant
to protect the public from the actual "offender" and not from a "principal offender".
If the state had charged the Petitioner with the commission of the actual sexual
felony, then the statute would apply, and the Petitioner could be designated a Sexual
Predator with all the requirements attached. Yet as it stands, the Petitioner was
charged under "Chapter 794.011(3) / 777.011", as a principal, not as the actual
perpetrator. See State v. Rodriguez, 602 So.2d 1270, 1271 (Fla. 1992) (The statute,

21

by its terms, does not allow for vicarious enhancement of defendant's sentence
because of the action of his co-defendant.) (App. G; Amended Information; Count
One - Sexual battery, a life felony "contrary to Chapter 794.011 (3) / 777.011. Florida
Statutes" (1997) (emphasis added)).
In Rodriquez, The Florida Supreme Court held that "section 775.087(1) does
not, by its terms, allow for vicarious enhancement because of the action of a co­
defendant." Id. at 1271. There, the trial court had reclassified Rodriquez's attempted
first-degree murder conviction based on his co-defendant's use of a firearm during
the offense. Id. The Supreme Court found this was error, holding that the plain
language of the statute, section 775.087(1), required proof that "the defendant," not
his co-defendant, possessed a firearm. Id. at 1272; §775.087(1), Fla. Stat. Because
Rodriquez had not personally used the weapon, the Court affirmed the holding of
the Third District Court of Appeal, which required the enhancement to be stricken,
the charge of conviction to be reduced, and the defendant to be resentenced. Id.\ see
also Campbell v. State, 935 So.2d 614 (Fla. 3D DCA 2006) (offense cannot be
reclassified under section 775.087(1) for use of a weapon without evidence that
defendant, rather than his co-defendant, had personal possession of the weapon
during the commission of the felony); Alusma v. State, 939 So.2d 1081 (Fla. 4th DCA
2006) (same); Blanc v. State, 899 So.2d 455 (Fla. 4th DCA 2005) (same).
This logic also applies to the Sexual Predator Act premised on the offender's

22

commission of an enumerated act: "Repeat sex offenders, sex offenders who use
physical violence, and sex offenders who prey on children". §775.2l(3)(a), Fla. Stat.
(1997). In this statute, the word "offender' has a plain meaning: the perpetrator who
commits the substantive criminal offense enumerated above. Therefore, the Florida
Supreme Court's holding in Rodriquez, that "section 775.087(1) does not, by its
terms, allow for vicarious enhancement because of the action of a codefendant"
applies equally to the designation under the Sexual Predator Act. Id.
In addition, if the Legislature had intended for a principal offender to be
designated as a sexual predator, they would have so stated in the statute. See Thayer
v. State, 335 So. 2d 815, 817 (Fla. 1976) ("Hence, where a statute enumerates the
things on which it is to operate, or forbids certain things, it is ordinarily to be
construed as excluding from its operation all those not expressly mentioned." (citing
Ideal Farms Drainage Dist. v. Certain Lands, 19 So. 2d 234 (Fla. 1944))).
Furthermore, in order to enforce and apply the provisions of the Act, the trial
court must render written findings based on statutory criteria to determine whether
a person being sentenced for a designated criminal offense qualifies as a sexual
predator. Thus this judicial function requires the trial court to uphold the declared
public policy of the Legislature by acting as a fact-finder to determine whether the
statutory criteria exist to designate an individual as a sexual predator and render a
written order to that effect. Kelly v. State, 795 So.2d 135, 138 (Fla. 5th DCA 2001).

23

In Apprendi v. New Jersey, 530 U.S. 466 (2000) and Blakely v. Washington,
542 U.S. 296 (2004), this Court has determined that any factual determination that
. enhances a defendant's sentence must be determined by a jury and not solely by the
sentencing judge.
Mr. Hughes was standing in the hallway with his girlfriend and did not
participate in any sexual abuse performed by his co-defendants. Mr. Hughes
girlfriend, who was standing next to Mr. Hughes in the hallway, was never charged
with any crime.(See Facts the Petitioner Relies Upon, supra).
Petitioner, as well as likely situated inmates, do not have the statutory criteria
to meet this requirement. Mr. Hughes was convicted under the statutory principal
theory and does not qualify as the "offender" under §775.21, which is required under
Kelly, and Amendments 8 and 14 of the U.S. Constitution and similar state and
Federal requirements.

B.

Mr. Hughes, and likely situated inmates, were convicted under §777.011, the

principal statute, which allows the state to charge and convict a non-participant for
the crime of the actual offender or perpetrator.
Where a statute enumerates the things on which it is to operate, or forbids
certain things, it is ordinarily to be construed as excluding from its operation all
those not expressly mentioned. See U.S. Const., Amend's 8 and 14.

24

Mr. Hughes was convicted of ss. 794.011(3) / 777.011. Fla. Stat. (1997), a
charge not specifically enumerated under section 775.21.
If the legislature had intended for the provisions of that subsection to apply
also to those persons, like the Petitioner, who were convicted of sexual battery as a
principal, then it would have been a simple matter to state it plainly in the statute.
Mr. Hughes was convicted under §777.011, the principal statute, which allows
the state to charge and convict a non-participant for the crime of the actual offender
or perpetrator.
Mr. Hughes was charged by amended information with Count One: Sexual
battery, a life felony "contrary to Chapter 794.011(3) / 777.011. Florida Statutes"
(1997); and Count Three: Attempted sexual battery "contrary to Chapter
794.011 (3V777.04/777.011. Florida Statutes" (1997) (emphasis added). The state
could only bring these charges by using the principal statute, §777.011, as Mr.
Hughes was a non-participant in the actual crime under §794.011(3), as stated by his
girlfriend under oath, supra, and by the prosecutor, Erik R. Matheney. (App. G;
Letter from prosecutor containing exhibits A and B; Synopsis of case2 and
handwritten notes, respectively.)

2 "We want to No Info the Sex Batt for TODD HUGHES: Given the testimony of the victim, who cannot say
that TODD HUGHES participated in the actual Sexual Battery and only remembers two people being present."
(App. D; State's SYNOPSIS of case, last paragraph under RECOMMENDATION)

25

Where a statute enumerates the things on which it is to operate, or forbids
certain things, it is ordinarily to be construed as excluding from its operation all
those not expressly mentioned. Thayer v. State, 335 So. 2d 815, 817 (Fla. 1976)
(citing Ideal Farms Drainage Dist. v. Certain Lands, 19 So. 2d 234 (Fla. 1944)); See
also, U.S. Constitution, Amendments 8 and 14
Fla. Stat. §775.21 (4)(c) 1., states that in order to be designated a sexual
predator, "[t]he felony meets the criteria of former ss. 775.22(2) and 775.23(2),
specifically, the felony is: a. a capital, life, or first degree felony violation of chapter
794 ..." (emphasis added). Mr. Hughes was convicted of ss. 794.011(3) / 777.011,
a charge not specifically enumerated under 775.21. See State v. Weeks, 202 So. 3d 1,
7 (Fla. 2016) ("[W]e are without power to construe an unambiguous statute in a way
which would extend, modify, or limit, its express terms or its reasonable and obvious
implications.") (citations and internal quotation marks omitted); Holly v. Auld, 450
So. 2d 217, 219 (Fla. 1984).
In Zopf v. Singletary, 686 So. 2d 680 (Fla. 1st DCA 1996), the Court held :
If the legislature had intended for the provisions of that
subsection [section 794.011(7), Florida Statutes (1993)] to
apply also to those persons, like the Petitioner, who were
convicted of attempted sexual battery, then it would have
been a simple matter to state it plainly in the statute. Where

26

a statute specifically enumerates those persons to be
covered, ordinarily the statute will be construed as
excluding from its operation all those other persons not
expressly mentioned.
Id. at 681-82; (citing Desisto College, Inc. v. Town of Howey-in-theHills, 706 F. Supp. 1479, 1495 (M.D. Fla.), ajfd, 888 F.2d 766 (11th
Cir. 1989) and Ideal Farms Drainage Dist. v. Certain Lands, 154 Fla.
554, 19 So. 2d 234,239 (Fla. 1944)).
The same logic applies to section 775.21, The Florida Sexual Predators Act.
If the legislature had intended for the provisions of subsection (4)(c) to apply also
to those persons, like the Petitioner, who were convicted of sexual battery as a
principal, then it would have been a simple matter to state it plainly in the statute.
Mr. Hughes was not specifically convicted of a violation of chapter 794, but
was convicted under a modified version using 777.011 which was not specifically
enumerated in the designation statute.

CONCLUSION

Given that the State Courts have extended the provisions of §775.21 (4)(c),
Fla. Stat. (1997), to include non-participating principals, the provisions of the 8th
Amendment to the U.S. Constitution, cruel and unusual punishment, have been

27

violated.
In addition, the due process provisions of the 14th Amendment have also been
violated when the state court failed to follow Apprendi and Blakely, supra, by
deciding factual issues outside the venue of the jury. These important issues,
designating a non-participating principal to the sexual act as a sexual predator for
lief constitutes cruel and unusual punishment not only for the Petitioner, but for all
likely situated convictions.

Respectfully submitted,

Todd Hughes, DC #166098
Suwannee Correctional Institution Annex
5964 U.S. Hwy 90
Live Oak, Fla. 32060

28

